t     h    e Center)
                             CLOSEOUT FOR M95030010

 current1 an Assistant Research Professor at

                                                                      -
 On M.arch.1995, OIG received a telephone call from the complainant, Dr


                   sus                                              University in
              The complainant said that he had previously worked as an Assistant Research
 Professor for the                              who is the ~irector
                                                   In his initial telephone call the complainant
 alleged that the subject had failed to include the complainant's name as an author on a
 publication that described research supported by NSF. At OIG's request he submitted letters,
 publications, and memos as support for his allegation.

In reviewing the material provided by the complainant, OIG identified five separate
allegations. They are: 1) the complainant's name had been removed from the authorship list
of a manuscript when it was             and appeared in incorrect authorship order on several
other papers, 2) the subject wrongfully caused a published paper2 to be withdrawn, 3) the
complainant was not given credit for several research ideas that he developed, 4) the subject
had rearranged the authorship on patent applications to the detriment of the complainant, and
5) the complainant was treated badly by the subject, specifically he was not given research
assignments, promotions, or raises that he believed he should have received or that were
promised to him and he and other members of the Center were required by the subject to do
manual labor outside the scope of his duties.

Allegation 1


and  m.
The ublished      er (paper 1) acknowledged two NSF grants for support,
                      Both NSF awards were for the purchase of
information system we learned that the subject was not a PI on either award and that the first
award was closed 7 years, and the second, 1 year, before the paper was published. The paper
acknowledged the awards for equipment that was used when conducting the research. The
research itself was supported by two Public Health Service, add a number of private
foundation, grants. NSFs data base showed that the subject had never received an NSF
award and the complainant had never submitted a proposal to NSF.

 OIG learned that the complainant brought his allegations to the attention of'the Dean,who,
 after reviewing paper 1 and another paper, concluded that the acknowledgment to the
 complainant in the first and his position as the second of five authors in the second was




                                       Page 1 of 3                                    M95-10
                            CLOSEOUT FOR M95030010
appropriate and commensurate with his contributions on each project. The Dean reviewed the
authorship or acknowledgment given the complainant on six recent papers and concluded that
"the type and level of your contributions has varied, depending on the project, and an
assessment of your contributions ha[d] been used in each case to determine placement of your
name on the articles." The complainant appealed this decision to the president of the
university, who first deferred to the dean's judgment, but after subsequent appeals by the
complainant, established a misconduct inquiry committee to review his allegation of
inappropriate authorship in connection with paper 1. The committee reviewed the paper,
laboratory notebooks, and additional information supplied by the complainant and the subject.
It concluded that the complainant's contributions did not warrant authorship on this paper and
that his authorship on nine other papers "indicat[ed] that he was regularly given credit for the
work he carried out." The complainant protested this decisionand the University's General
Counsel reviewed the report and the complainant's allegations that the committee was strongly
influenced by the subject. The General Counsel concluded that the committee's decision was
based on the information it reviewed and that it was not influenced by the subject.

OIG concluded that the complainant's allegation had been satisfactorily addressed by the
institution. OIG also concluded that, while the subject's paper acknowledged two NSF
equipment grants, the use of this equipment, by itself and in the absence of a stronger
relationship between the closed equipment awards and the authorship dispute on a paper
describing research supported by other organizations was insufficient to give OIG cause to re-
review the complainant's allegation.

Allegation 2:

The complainant and a colleague published a paper in a European scientific journal. The
paper described work the colleague and complainant had conducted in the subject's laboratory
prior to the colleague's return to her native country. The colleague had provided the subject
with a draft of the manuscript many months before its publication but had not received a
response to her request for comments. Eventually the complainant and colleague published
the paper and named the subject as the third author. The subject sent angry letters to the
colleague and requested that the journal publisher withdrawal the paper. It did. The
colleague protested this action to the publisher and the subject's university president. The
publisher and president separately said that this dispute should be resolved by the co-authors
and both stated they would not mediate the dispute. OIG noted that the publication did not
cite NSF support and therefore this allegation is not within NSF's jurisdiction.

Allegation 3

The complainant did not provide a detailed description of the ideas that he believes he
originated and for which he was not given credit. However, since neither the subject nor the


                                      Page 2 of 3                                 M95-10
                             CLOSEOUT FOR M95030010
complainant had ever received NSF support, any specific allegations the complainant would
make against the subject would, again, not be within NSF's jurisdiction.

Allegation 4

The complainant alleged that the subject changed the authorship on one patent application and
signed the complainant's name to another patent disclosure (an internal document) without the
complainants' knowledge or permission. OIG reviewed the relevant documents and found
that the research had not been supported by NSF, it was supported by the Public Health
Service and the university. Again, the complainant's allegations do not fall within NSF's
jurisdiction.

Allegation 5

The complainant's allegations that he had been unfairly denied promotions and salary raises
were addressed by university administrators. They explained that promotions and increases
were generally not being awarded because of the "current financial situation." The
complainant said that he, along with other members of the Center, were expected to collect
plant bulbs. The study of compounds extracted from the bulbs was part of the Center's
research plan. While the complainant might have found this a menial exercise, it is within the
realm of normal scientific practice for researchers to collect the raw materials that provide the
refined products used in their research. Neither of the complainant's allegations are issues of
misconduct in science.

 OIG concluded that three of the five allegations raised by the complainant were not within
 NSF's jurisdiction. One allegation, the fifth, was not considered an issue of misconduct in
 science. One allegation, the first, was an authorship dispute on a paper that acknowledged
.two NSF equipment awards and was marginally within NSF's jurisdiction. OIG determined
 that the institution's two separate reviews of this allegation, which concluded that the
 complainant had been adequately acknowledged, provided a fair review of the complainant's
 allegation. OIG concluded that the citation of two closed NSF equipment awards was
 insufficient support to pursue an authorship dispute on a paper describing research supported
 by other organizations.

This inquiry is closed and no further action will be taken in this case.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 3 of 3
